2311 Douglas Street
Omaha, Nebraska 68102-1214

COCKLE

Legal Briefs

Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850 No.
USAMA JAMIL HAMAMA, et al.,
Petitioners,

Vv.
REBECCA ADDUCCLI, et al.,
Respondents.

AFFIDAVIT OF SERVICE

E-Mail Address:

contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 30th day of August, 2019, send out
from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

To be filed for:
MARGO SCHLANGER
Counsel of Record
625 South State Street
Ann Arbor, MI 48109
(734) 615-2618
margo.schlanger@gmail.com

ANAND BALAKRISHNAN

LEE GELERNT

JUDY RABINOVITZ

AMERICAN CIVIL LIBERTIES
UNION FOUNDATION

125 Broad Street, 18th Floor

‘New York, NY 10004

DAVID D,. COLE

AMERICAN CIVIL LIBERTIES
UNION FOUNDATION

915 15th Street NW

Washington, DC 20005

SEE ATTACHED

MIRIAM J. AUKERMAN
AMERICAN CIVIL LIBERTIES

UNION FUND OF MICHI-GAN
1514 Wealthy Street SE

Grand Rapids, MI 49506
KIMBERLY L. SCOTT
WENDOLYN W. RICHARDS
MILLER, CANFIELD, PAD-DOCK
& STONE, PLC
101 N. Main Street,
7th Floor
Ann Arbor, MI 48104

DAVID JOHNSON
573 Hawksnest Drive
South Haven, MI 49090

Subscribed and sworn to before me this 30th day of August, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary

State of Nebraska
My Commission Expires Nov 24, 2020

 

Notary Public Affiant 38589
SERVICE LIST

Noel J. Francisco

Solicitor General of the United States
United States Department of Justice
Room 5616

950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for all Respondents
